No. 21-5025
IN THE SUPREME COURT OF THE UNITED STATES
JAMES GALEN HANNA,
Petitioner
vs.
TIM SHOOP, Warden
Respondent
ON PETITION FOR WRIT OF CERTIORARI TO
THE UNITED STATES COURT OF APPEALS FOR THE SIXTH CIRCUIT
PETITIONER’S SUPPLEMENTAL BRIEF

Deborah L. Williams
Federal Public Defender
Allen L. Bohnert
* Paul R. Bottei
Jacob A. Cairns
Assistant Federal Public Defenders
Office of the Federal Public Defender
Southern District of Ohio
10 West Broad Street, Suite 1020
Columbus, Ohio 43215
(614) 469-2999
* Counsel of Record

In his petition for writ of certiorari, Hanna has noted that his petition provides
an excellent vehicle for addressing the questions presented, because, unlike prior
cases before this Court, he is not seeking and does not require a stay of execution.
Pet. 39-40 & n. 9 (noting then-pending May 18, 2022 execution date).
On September 10, 2021, Ohio Governor Mike DeWine issued Hanna a Warrant
of Reprieve, directing that the “sentence of death be reprieved for James Galen Hanna
until May 14, 2025.”
Governor DeWine’s reprieve of Hanna’s sentence until 2025 confirms that,
should this Court grant certiorari, it can indeed decide this matter in the normal
course, without any pressure from a pending execution date.

Respectfully Submitted,
Deborah L. Williams
Federal Public Defender
Allen L. Bohnert
* Paul R. Bottei
Jacob A. Cairns
Assistant Federal Public Defenders
Office of the Federal Public Defender
Southern District of Ohio
10 West Broad Street, Suite 1020
Columbus, Ohio 43215
(614) 469-2999
/s/ Paul R. Bottei
* Counsel of Record
September 13, 2021

